TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Improvements Have Been Made to Monitor
                  Employers That Use Professional Employer
                    Organizations, but More Can Be Done



                                      September 19, 2007

                              Reference Number: 2007-30-169




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Have Been Made to Monitor
                             Employers That Use Professional Employer Organizations, but More
                             Can Be Done (Audit # 200630027)

 This report presents the results of our review of the efforts the Internal Revenue Service (IRS) is
 making to address compliance of Professional Employer Organizations (hereafter referred to as a
 PEO or an Organization). The overall objectives of the review were to determine the steps the
 IRS is taking to address PEOs that default on paying employment taxes and to determine what
 can be done to improve compliance tracking for those businesses that terminate their use of these
 Organizations.

 Impact on the Taxpayer
 A PEO may enter into contracts with numerous companies (clients) and is responsible for paying
 employment taxes on wages paid to leased employees. If the Organization fails to pay these
 employment taxes, large tax underpayments can occur in a short time span because of the large
 number of employees that are affected. If the Organization defaults on paying the employment
 taxes, it usually does not have significant assets to collect against because it is only a service
 company. The IRS’ only recourse may be to collect the amounts due from clients of the
 Organizations, which could result in significant additional expense for the clients who paid fees
 to the Organizations to cover the costs of payroll taxes and subsequently must pay again.

 Synopsis
 Current regulations do not protect clients when PEOs default on paying employment taxes. In
 many States, these Organizations provide a financial instrument to protect the State and the
                    Improvements Have Been Made to Monitor Employers That Use
                     Professional Employer Organizations, but More Can Be Done



client against loss; 22 States have requirements for the PEOs to be bonded. However, the
Federal Government currently does not require bonding of PEOs.
In March 2006, the House of Representatives proposed in H.R. 4985,1 certain requirements for
PEOs to become certified. Besides requiring the posting of a bond, this bill proposed that an
independent certified public accountant review the Federal employment tax payments of each
Organization to ensure it had withheld and made deposits of all taxes. Once a year, the certified
public accountant would also report whether the certified Organization’s financial statements are
presented fairly, in accordance with Generally Accepted Accounting Principles. Without
regulations such as these, clients of PEOs and the Federal Government are both at increased risk.
Instances of Organizations defrauding their clients are becoming more prevalent. The following
are recent examples:
    •   On December 7, 2004, the Chief Executive Officer of a large PEO pled guilty to
        conspiring to defraud the United States by underreporting and underpaying in excess of
        $51 million in Federal employment taxes to the IRS. On January 7, 2005, the former
        Chief Operating Officer also pled guilty to the same charges. The objective was to avoid
        alerting the IRS to the multimillion dollar underpayment of Federal employment taxes by
        filing fraudulent quarterly employment tax returns.
    •   The New York Law Journal, dated July 17, 2003, discusses the prosecution of the
        president of a PEO that, during a period of fewer than 2 years, failed to pay over to the
        IRS more than $13 million in payroll taxes for more than 6,000 employees leased to over
        100 businesses.2
At the beginning of this review, the IRS was unable to specifically link businesses with their
PEOs. As a result, it could not differentiate between employers that had become noncompliant
and were not paying their employment taxes and those that had begun using an Organization.
In 2005, the Office of Taxpayer Burden Reduction of the Small Business/Self-Employed
Division convened a task force to study the use of Employer/Payer Appointment of Agent
(Form 2678).3 The task force determined Form 2678 was not being used to its full potential and
recommended changes to the way the Form is processed. It implemented improvements in the
way Form 2678 is designed and processed subsequent to our review. We agree with the


1
  Small Business Efficiency Act of 2006, 109th Congress (March 16, 2006).
2
  The New York Law Journal, Volume 230—NO. 12; Thursday, July 17, 2003.
3
  Application for authorization as an agent to perform acts required of an employer should be (1) made in writing
by the agent to the IRS campus with whom the agent will file returns upon approval of the application and
(2) accompanied by Form 2678. The employer should submit the properly executed Form 2678 to the agent, who
will transmit it to the IRS with a written request for authority to act as the agent of such employer. The campuses
are the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and forward
data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                              2
                 Improvements Have Been Made to Monitor Employers That Use
                  Professional Employer Organizations, but More Can Be Done



corrective actions taken by the task force; they are an important step in getting this compliance
issue under control.

Recommendations
We recommended the Commissioner, Small Business/Self-Employed Division, and the IRS
Office of Chief Counsel work with the Office of Tax Policy in the Department of the Treasury to
(1) consider a legislative proposal requiring all current and future PEOs to become certified,
which would include posting a bond for payment of taxes; and (2) explore all options, including
use of the revised Form 2678, to establish accurate links between the PEOs and their clients.
The Commissioner, Small Business/Self-Employed Division, should also fully implement the
changes proposed by the task force requiring the Employer’s QUARTERLY Federal Tax Return
(Form 941) to list clients, and ensure outreach efforts are adequate to sufficiently inform
taxpayers of the potential risks of using a PEO, which include remaining liable for employment
taxes left unpaid by the PEOs for employees used by the taxpayer.

Response
IRS management agreed with the recommendations and will work with the Office of Tax Policy
in the Department of the Treasury to consider a legislative proposal applicable to PEOs
addressing certification and bonding requirements and other requirements such as reviews of
quarterly tax payments and annual financial reviews. The IRS will also work with the
Department of the Treasury to explore all options to establish links between PEOs and their
clients. The Director, Specialty Programs, Small Business/Self-Employed Division, will explore
a proposal for PEOs to provide a list of every client whose wages the organization is reporting to
the IRS and will work to develop a mechanism requiring this information. The Director,
Communications, Liaison and Disclosure, Small Business/Self-Employed Division, will develop
an outreach initiative to small business/industry groups that addresses employment tax
obligations when the services of a PEO are used. Management’s complete response to the draft
report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.




                                                                                              3
                      Improvements Have Been Made to Monitor Employers That Use
                       Professional Employer Organizations, but More Can Be Done




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Current Regulations Do Not Protect Clients When Professional
          Employer Organizations Default on Paying Employment Taxes .................Page 3
                    Recommendations 1: ........................................................Page 5

          The Internal Revenue Service Is Taking Actions to Improve
          Tracking of Employers That Use the Services of a
          Professional Employer Organization ............................................................Page 5
                    Recommendations 2 through 4: ..........................................Page 7

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Revised Employer/Payer Appointment of Agent
          (Form 2678) ..................................................................................................Page 13
          Appendix V – Schedule ___ (Form 941) for Aggregate Filers:
          Employer’s Quarterly Federal Tax Return (DRAFT)...................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
      Improvements Have Been Made to Monitor Employers That Use
       Professional Employer Organizations, but More Can Be Done




                     Abbreviations

IRS            Internal Revenue Service
PEO            Professional Employer Organization
                 Improvements Have Been Made to Monitor Employers That Use
                  Professional Employer Organizations, but More Can Be Done




                                          Background

Tax compliance by Professional Employer Organizations (hereafter referred to as a PEO or an
Organization) is a growing area of risk. These Organizations began operating in the early 1980s.
In this industry, PEOs (also called employee leasing companies) contract with client companies
to handle the management of critical human resources and assume some of the employment
responsibilities normally handled by their client companies. This includes hiring some or all of
the client companies’ employees whose services are then leased back to the client companies
(Figure 1 presents the graphical relationship).
According to the National Association of Professional Employer Organizations:
         The Professional Employer Organization relationship involves a contractual allocation
         and sharing of employer responsibilities between the Professional Employer
         Organization and the client. This shared employment relationship is called
         co-employment . . . When evaluating the employer role of either the Professional
         Employer Organization or the client, the facts and circumstances of each employer
         obligation should be examined separately, because neither party alone is responsible for
         performing all of the obligations of employment. Each party will be solely responsible
         for certain obligations of employment, while both parties will share responsibility for
         other obligations.
                     Figure 1: Relationship of the Professional Employer
                            Organizations, Clients, and Employees




                       Source: The National Association of Professional Employer
                       Organizations web site.1



1
    www.NAPEO.org.
                                                                                           Page 1
                   Improvements Have Been Made to Monitor Employers That Use
                    Professional Employer Organizations, but More Can Be Done



A PEO may enter into contracts with numerous companies and is responsible for paying
employment taxes on all the leased employees. If the Organization fails to pay employment
taxes on these leased employees, large tax underpayments can occur in a short time span because
of the large number of employees that are affected. If the Organization defaults on paying the
employment taxes, it usually does not have significant assets to collect against because it is only
a service company. One criminal investigation determined an Organization owed the Federal
Government approximately $50 million in unpaid taxes.
Revenue Procedure 70-62 established procedures to be followed by the Internal Revenue Service
(IRS) and taxpayers in applying for authorization to perform acts required of employers under
the Federal employment tax statutes. Application for authorization as an agent to perform acts
required of an employer should be (1) made in writing by the agent to the IRS campus3 with
whom the agent will file returns upon approval of the application, (2) accompanied by an
Employer/Payer Appointment of Agent (Form 2678), and (3) executed by each employer for
whom the agent is to act. The employer should submit the properly executed Form 2678 to the
agent, who will transmit it to the IRS with a written request for authority to act as the agent of
such employer.
This review was conducted at the Small Business/Self-Employed Division in Lanham, Maryland,
during the period April 2006 through January 2007. The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
  1970-1 C.B. 420; 1970 IRB LEXIS 772. A Revenue Procedure is an official statement by the IRS about the
practices and procedures to be followed by taxpayers or by the IRS.
3
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                    Improvements Have Been Made to Monitor Employers That Use
                     Professional Employer Organizations, but More Can Be Done



         unemployment taxes. In still other instances, the bonds are “deficiency bonds,” meaning
         the bond is required due to the PEO’s failure to pay certain taxes on time, poor financial
         performance, or failure to provide financial statements demonstrating certain equity
         levels. . . . Qualifying for these bonds is not typically difficult . . .
The Federal Government currently does not require bonding of PEOs. However, it does require
bonding of some other types of taxpayers. For example, the Employee Retirement Income
Security Act of 19745 establishes a comprehensive scheme of fiduciary6 duties and
responsibilities that are designed to protect the benefits of the pension plan participants and their
beneficiaries and to prescribe standards that may be enforced. The fiduciaries have a duty to
protect the pension plan assets and to administer and manage the plan and trust in a manner that
protects the interests of the plan participants and beneficiaries. Every fiduciary and every person
who handles pension plan funds must be bonded. The bonding rules are set forth in Department
of Labor Reg. Sections 2580.412-1 through 2580.412-36.7
The duties of a PEO are similar to those of a fiduciary in many ways. The Organization accepts
from clients payments that are intended to cover employee wages, employer and employee
portions of Federal income taxes, Social Security taxes, State taxes when applicable, and fringe
benefits that may be offered through the Organization (e.g., a retirement plan). The Organization
is to control these funds and remit appropriate amounts to the Federal and State Governments.
In March 2006, the House of Representatives proposed in H.R. 49858 certain requirements for
PEOs to become certified. Two of the requirements involved having the Organization post a
bond for the payment of taxes and consent to having quarterly tax payment reviews as well as
annual financial reviews. Besides requiring the posting of a bond, this bill proposed that an
independent certified public accountant review the Federal employment tax payments of each
Organization to ensure it had withheld and made deposits of all taxes. Once a year, the certified
public accountant would also report whether the certified Organization’s financial statements are
presented fairly, in accordance with Generally Accepted Accounting Principles.
According to the New York Law Journal, dated July 2003, “In addition to prosecuting the
operators of employee leasing companies who abscond with payroll taxes, the IRS has recently



5
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
29 U.S.C., and 42 U.S.C.). This Federal law sets minimum standards for pension plans in private industry.
6
  A fiduciary is one often in a position of authority who obligates himself or herself to act on behalf of another (as in
managing money or property) and assumes a duty to act in good faith and with care, candor, and loyalty in fulfilling
the obligation; one (as an agent) having a fiduciary duty to another, Merriam-Webster's Dictionary of Law, 1996.
7
  These regulations were originally issued under Section 13 of the Welfare and Pension Plans Disclosure Act of
1958 (72 Statute 997, August 28, 1958), which was superseded by the Employee Retirement Income Security Act of
1974. The Department of Labor simply reissued its Regulations under Employee Retirement Income Security Act
of 1974 Section 412.
8
  Small Business Efficiency Act of 2006, 109th Congress (March 16, 2006).
                                                                                                                Page 4
                    Improvements Have Been Made to Monitor Employers That Use
                     Professional Employer Organizations, but More Can Be Done



begun to seek and obtain civil injunctive relief against such companies, placing them into
receivership, freezing their assets and prohibiting their owners from operating similar services.”9
However, without regulations such as those discussed above, clients of PEOs and the Federal
Government are both at increased risk. Instances of Organizations defrauding their clients are
becoming more prevalent. The following are recent examples:
      •   On December 7, 2004, the Chief Executive Officer of a large PEO pled guilty to
          conspiring to defraud the United States by underreporting and underpaying in excess of
          $51 million in Federal employment taxes to the IRS. On January 7, 2005, the former
          Chief Operating Officer also pled guilty to the same charges. The objective was to avoid
          alerting the IRS to the multimillion dollar underpayment of Federal employment taxes by
          filing fraudulent quarterly employment tax returns.
      •   The New York Law Journal, dated July 17, 2003, discusses the prosecution of the
          president of a PEO that, during a period of fewer than 2 years, failed to pay over to the
          IRS more than $13 million in payroll taxes for more than 6,000 employees leased to over
          100 businesses.
Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, and the
IRS Office of Chief Counsel, should work with the Office of Tax Policy in the Department of the
Treasury to consider a legislative proposal requiring all current and future PEOs to meet the
requirements for becoming “certified,” which would include posting a bond for the payment of
taxes and may include some of the other requirements outlined in H.R. 4985, such as
independent quarterly tax payment reviews as well as annual financial reviews.
          Management’s Response: IRS management agreed with this recommendation and
          will work with the Office of Tax Policy in the Department of the Treasury to consider a
          legislative proposal applicable to PEOs, including certification and bonding
          requirements, and other requirements such as reviews of quarterly tax payments and
          annual financial reviews.
The Internal Revenue Service Is Taking Actions to Improve Tracking
of Employers That Use the Services of a Professional Employer
Organization
We identified 761 corporations that had (1) filed income tax returns for fiscal years ending
between February 2003 and March 2006 with significantly large amounts of income and/or



9
    The New York Law Journal, Volume 230—NO. 12; Thursday, July 17, 2003.
                                                                                             Page 5
                   Improvements Have Been Made to Monitor Employers That Use
                    Professional Employer Organizations, but More Can Be Done



wages, (2) stopped filing employment taxes, and (3) continued to file income tax returns.10 We
selected a random sample of 59 of these taxpayer entities and reviewed their tax records to
determine if the businesses had indications that employment tax returns should have been filed.
Our review showed 34 (58 percent) of these 59 taxpayer entities reported significant salaries
and/or wages during the period of our review, indicating the businesses potentially should have
filed Federal employment tax returns. It is possible these businesses used the services of a PEO.
However, at the time of our review, IRS recordkeeping did not indicate such a relationship
existed.
To administer employment tax laws and to effectively use scarce compliance resources, the IRS
needs to be able to identify businesses that begin using the services of a PEO, as well as when
businesses terminate the use of those services. Without this ability, the IRS may not take
appropriate actions against businesses that do not pay employment taxes or may unnecessarily
burden taxpayers that are paying through an Organization.
The IRS has taken actions to improve the tracking of businesses that use the services of a PEO.
However, it is still unable to identify all Organizations and the businesses that use them.
Currently, the IRS uses Form 2678 to record an employer’s (business’) use of third-party
employment companies and receives approximately 30,000 of these Forms per year. It stores
these Forms at two IRS campuses; however, prior to January 2007, these Forms were not
transcribed or stored in a searchable order.
In 2005, the Office of Taxpayer Burden Reduction of the Small Business/Self-Employed
Division convened a task force to study the use of Form 2678; it determined the Form was not
being used to its full potential and recommended changes to the way the Form is processed. The
task force implemented improvements in the way Form 2678 is designed and processed
subsequent to our review, including:
     •   Designating specific action codes11 to show receipt of Form 2678 by the IRS and the
         relationship between the parties (i.e., establishment of an authorization or termination).
     •   Redesigning Form 2678 (effective May 2007) using a “plain language” format for
         simplicity. The new Form 2678 requires both parties to sign (see Appendix IV).
     •   Proposing that a specific schedule be attached to the Employer’s QUARTERLY Federal
         Tax Returns (Form 941) filed by each PEO. The schedule is to be filed by the PEO with
         the Forms 941 and must list every taxpayer on whose behalf the PEO is filing (see
         Appendix V).

10
   From a population of taxpayers filing 1,895,085 Employer’s QUARTERLY Federal Tax Returns (Form 941)
containing indicators that this was the business’ final return, we identified 761 taxpayers that had filed a U.S.
Corporation Income Tax Return (Form 1120) and reported net income and/or salary or wages greater than
$1,000,000. (This amount was determined by the audit team as significant but represents no IRS tolerance.)
11
   Action codes are used to designate an action to be taken on a taxpayer account.
                                                                                                              Page 6
                 Improvements Have Been Made to Monitor Employers That Use
                  Professional Employer Organizations, but More Can Be Done



   •   Implementing a process to prevent Employer’s Annual Federal Unemployment (FUTA)
       Tax Returns (Form 940) filed by a PEO for individual clients from “opening” an
       erroneous Form 941 filing requirement for each client (this requirement is satisfied by the
       PEO’s filing of an aggregate Form 941 for all its clients) and burdening clients with
       erroneous Form 941 Tax Delinquency Investigation notices.
We agree that the corrective actions taken by this task force are an important step in improving
internal controls over this compliance issue.
Recommendations
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, and the
Office of Chief Counsel should work with the Department of the Treasury to explore all options,
including use of the revised Form 2678, to establish accurate links between the PEOs and their
clients.
       Management’s Response: IRS management agreed with this recommendation and
       will work with the Department of the Treasury to explore all options, including use of the
       revised Form 2678 or a similar form, to establish accurate links between the PEOs and
       their clients.
Recommendation 3: The Commissioner, Small Business/Self-Employed Division, should
fully implement the proposal that Form 941 require attachment of a specific schedule filed by a
PEO that will list every taxpayer on whose behalf the Organization is filing.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Specialty Programs, Small Business/Self-Employed Division, will explore a
       proposal to list every client whose wages the Organization is reporting and will work to
       develop a mechanism requiring this information.
Recommendation 4: The Commissioner, Small Business/Self-Employed Division, should
ensure outreach efforts are adequate to sufficiently inform clients of the potential risks of using a
PEO, which include remaining liable for payment of employment taxes left unpaid by the PEO
on employees used by the client.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Communications, Liaison and Disclosure, Small Business/Self-Employed
       Division, will develop an outreach initiative to small business/industry groups which
       provides a key message and talking points to address employment tax obligations when
       the services of a PEO are used.




                                                                                              Page 7
                  Improvements Have Been Made to Monitor Employers That Use
                   Professional Employer Organizations, but More Can Be Done



                                                                                              Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of the review were to determine the steps the IRS is taking to address
PEOs (also referred to as an Organization) that default on paying employment taxes and to
determine what can be done to improve compliance tracking for those businesses that terminate
their use of these Organizations. To accomplish our objectives, we:
I.      Determined efforts underway by the IRS, the Department of the Treasury, and Congress
        to address problems with certain third-party payers of employment taxes, such as PEOs.
        A. Contacted the Treasury Inspector General for Tax Administration
           Congressional/Media Liaison to identify pending changes in the Internal Revenue
           Code covering liability of taxes owed by these Organizations.
        B. Analyzed pending legislation to determine whether liability is clearly stated between
           the Organization and employee-leasing client.
        C. Reviewed IRS efforts to improve the functionality of Employer/Payer Appointment
           of Agent (Form 2678).
        D. Reviewed IRS efforts to improve the recording of Organization clients using
           Employer’s QUARTERLY Federal Tax Return (Form 941).
II.     Identified employers that may have hired PEOs to lease employees.
        A. Prepared computer requests to identify taxpayers that have stopped filing Forms 941,
           or whose wages paid are significantly reduced, and are still in business.
            1. From the Data Center Warehouse,1 identified the population of 761 taxpayers who
               filed Form 941 that had stopped submitting the Forms by extracting those
               taxpayers who had used Computer Condition Code “F,” indicating the filing of
               the final return and had income and/or wages of $1 million or more. (This amount
               was determined by the audit team as significant, but represents no IRS tolerance.)
            2. From the Data Center Warehouse, identified the population of 24,935 taxpayers
               whose “Total Compensation” had decreased by 50 percent for any period between
               the first and fourth quarters of Calendar Year 2005.



1
 The Data Center Warehouse is a Treasury Inspector General for Tax Administration repository of IRS data used
for analysis.
                                                                                                        Page 8
                   Improvements Have Been Made to Monitor Employers That Use
                    Professional Employer Organizations, but More Can Be Done



             3. Sampled the returns identified in the computer requests for Steps II.A.1. and
                II.A.2. to assess the accuracy of the data.2
             4. We validated the reliability of the data identified in Step II.A.1. by reviewing a
                randomly selected sample of 59 cases to ensure the required filing requirements
                matched the tax returns filed by the taxpayers.
             5. We validated the reliability of the data identified in Step II.A.2. by reviewing a
                sample of 62 cases selected to ensure proper calculations were performed.
III.     Evaluated the filing and paying compliance of employers identified in Step II by
         selecting a statistically valid sample of 59 employers from a population of 761 and
         determining whether there was a compliance problem indicated.
         A. Analyzed the sample selected and determined whether all required tax returns had
            been timely submitted to the IRS for processing. The required returns were
            determined from the forms indicated on the employer’s entity module.3
         B. Analyzed the same sample and determined whether all required payments had been
            made and made on time.
         C. Determined what efforts, if any, the IRS could take to reduce the identified
            compliance problems.
IV.      Used PEO data supplied by the Division of Occupational and Professional Licensing for
         one State. The State providing the data used in this Step was selected because no cost
         was associated with obtaining the data. Another State was also contacted for data;
         however, the cost of the data would have been significant. We received data showing a
         total of 3,118 employers had ended their relationships with 93 Organizations. We
         reviewed a randomly chosen statistically valid sample of 64 tax records for 27 of the
         Organizations.4
         A. Identified the Organization name by using the Integrated Data Retrieval System.5



2
  We used a statistically valid sample of 59 from a population of 761 in expectation of estimating the number of
taxpayers in our population that had stopped filing their employment returns because they were possibly using a
PEO. We used a 95 percent confidence level, an expected error rate of 20 percent, and a precision level of
+10 percent.
3
  The entity module will provide name, address, and other entity information from the input of the Taxpayer
Identification Number.
4
  We used a statistically valid sample of 64 from a population of 3,118 in expectation of estimating the number of
PEOs in our population that were not fully compliant in paying employment taxes. We used a 95 percent
confidence level, an expected error rate of 20 percent, and a precision level of +10 percent.
5
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 9
         Improvements Have Been Made to Monitor Employers That Use
          Professional Employer Organizations, but More Can Be Done



B. Identified the clients that have ended their relationship with the Organization by
   finding those taxpayers who had a date indicating the end of the Organization
   relationship in the data received.
C. Determined the Employer Identification Number of the client by using the Integrated
   Data Retrieval System.
D. Determined the filing requirements of the taxpayers identified in Step IV. B. using the
   Integrated Data Retrieval System. We also determined whether the tax returns may
   have been filed by a parent company.
E. From the Organization data supplied by the State, quantified the number of taxpayers,
   the number of Organizations, the number of taxpayers ending their relationship with
   the Organization, and the number of clients that had began the use of another
   Organization.




                                                                                   Page 10
               Improvements Have Been Made to Monitor Employers That Use
                Professional Employer Organizations, but More Can Be Done



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
L. Jeff Anderson, Audit Manager
Stanley M. Pinkston, Lead Auditor
Roy E. Thompson, Auditor
Ali A. Vaezazizi, Auditor
Robert J. Carpenter, Senior Information Technology Specialist




                                                                                        Page 11
              Improvements Have Been Made to Monitor Employers That Use
               Professional Employer Organizations, but More Can Be Done



                                                                          Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Taxpayer Burden Reduction SE:S:TBR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 12
     Improvements Have Been Made to Monitor Employers That Use
      Professional Employer Organizations, but More Can Be Done



                                                    Appendix IV

Revised Employer/Payer Appointment of Agent
               (Form 2678)




                                                          Page 13
Improvements Have Been Made to Monitor Employers That Use
 Professional Employer Organizations, but More Can Be Done




                                                     Page 14
Improvements Have Been Made to Monitor Employers That Use
 Professional Employer Organizations, but More Can Be Done




                                                     Page 15
     Improvements Have Been Made to Monitor Employers That Use
      Professional Employer Organizations, but More Can Be Done



                                                    Appendix V

Schedule ____ (Form 941) for Aggregate Filers:
  Employers Quarterly Federal Tax Return
                  (DRAFT)




                                                          Page 16
    Improvements Have Been Made to Monitor Employers That Use
     Professional Employer Organizations, but More Can Be Done



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 17
Improvements Have Been Made to Monitor Employers That Use
 Professional Employer Organizations, but More Can Be Done




                                                     Page 18
Improvements Have Been Made to Monitor Employers That Use
 Professional Employer Organizations, but More Can Be Done




                                                     Page 19
Improvements Have Been Made to Monitor Employers That Use
 Professional Employer Organizations, but More Can Be Done




                                                     Page 20
